Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   PATERNITY ESTABLISHMENT

      Payment to Vital Records Agencies




                      JUNE GIBBS BROWN
                       Inspector General

                           JULY 1999
                         OEI-06-98-00056
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                                Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General, and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

REGION                                        HEADQUARTERS

Blaine Collins
                               Alan Levine, Program Specialist
Ruth Ann Dorrill
                             Joan Richardson, Program Specialist
Marnette Robertson
                           Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn


     To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                 Update on State Child Support Agency
                  Payment to Vital Records Agencies
PURPOSE

This report describes recent data collection regarding use of Federal funds to pay State vital
records offices for paternity establishment services, following up on a prior recommendation that
the Federal Office of Child Support Enforcement (OCSE) provide more detailed guidance to the
States on this matter.

RESULTS IN BRIEF

We found that while the number of State vital records agencies who receive Federal funds for
paternity establishment activities has increased over the last two years, half still do not. In some
cases this is due to confusion over Federal rules governing such payments. Given the important
role vital records agencies play in recording paternity establishments, we wish to re-emphasize the
usefulness of clarity and consistency in interpreting Federal policy. By providing guidance to
States on this issue, OCSE can help child support agencies make more reasoned decisions now
which may promote more effective interagency collaboration well into the future.

BACKGROUND

Responsibility of Vital Records Agencies in Assisting With Paternity Acknowledgment Efforts

Vital records agencies have for a number of years been required to change birth records in
response to completed paternity acknowledgment forms. Welfare reform legislation requires that
State vital records agencies offer voluntary paternity acknowledgment services to parents, receive
copies of paternity establishments, and, if designated by their State, keep a central database of all
paternity establishments. At the time of our data collection, proposed regulations indicated that
vital records agencies would be Federally required to maintain State paternity databases. State
vital records agencies often request reimbursement from their child support agency for services
rendered in administering paternity establishments. We reported in 1997 on the prevalence and
perceived effect of such payments in our report on in-hospital voluntary paternity
acknowledgment (OEI-06-95-00160). We found that, although fewer than half of State child
support offices were paying their vital records agency for services, those who had payment
agreements reported generally improved service and interagency relationships.

We have now completed data collection on a new study which more broadly addresses all State
methods of establishing paternity. Through this inspection, we received new information on
payment practices from the same State offices, allowing for follow-up analysis 18 months after
our original research. Every State child support office and vital records agency responded to our
surveys during the Summer and Fall of 1998.


                                                  1

Need for Consistent and Clear Information to States Regarding Use of Funds.

In our previous report, we recommended that OCSE clarify the appropriate use by child support
agencies of Federal participation monies in compensating vital records agencies. Both State child
support and vital records agencies expressed confusion over this issue, and varied in their
interpretation of Federal mandates. Federal regulation written in 1994 indicated that Federal
matching funds may be used to reimburse the “entity” responsible for the Statewide paternity
database for selected functions, including the costs of determining whether voluntary
acknowledgments are stored in a statewide database, providing copies of paternity
establishment documents and birth certificates, and the costs of routine exchange of
information or documents under an agreement (Federal Register, Vol. 59, No. 246). Yet, a
number of States reported to us that Federal funds were not available for any reimbursement to
vital records agencies, with several indicating they had received verbal communication from
OCSE to this effect. Welfare reform legislation did not revise this policy on payment. Rather, the
final rules interpreting welfare reform repeated the previous policy.

State vital records agencies have no Federal counterpart which issues regulations governing their
practices. Their professional organization, The National Association of Public Health Statistics
and Information Systems (NAPHSIS), earlier this year requested OCSE’s comment on the issue
of payment in a letter covering a number of issues related to vital records agencies’ involvement in
paternity establishment. The association expressed concern over a lack of funds available to
implement the Federal provisions to maintain a paternity database and offer paternity services to
parents. They also asked OCSE to “possibly be more definitive in what services are reimbursable
and issue policy/guidelines which encourage State child support enforcement agencies to
financially support vital records offices’ activities in paternity establishment.”

OCSE’s response to the association’s letter states that vital records agencies may be reimbursed
using Federal matching funds, as may hospitals and other entities, up to 20 dollars for obtaining
signed voluntary acknowledgment forms from parents pursuant to an agreement with the State
child support enforcement agency. The letter also mentions availability of funds for “reasonable
and essential short-term training associated with the State’s [paternity] program.” However, the
response does not reiterate Federal regulations regarding use of Federal funds to reimburse vital
records offices for expenses related to retrieving paternity establishment information from a vital
records database. These costs may include fees charged for copies of voluntary acknowledgments
or birth certificates, or expenses incurred in providing child support staff with on-line access to
verify paternity information in a vital records database. By not including this information in their
response, OCSE may have contributed to the confusion over payment.




                                                 2

FINDINGS

In Most States, Vital Records Agencies Contribute Significantly to Paternity Establishment
Efforts, Primarily As a Source for Birth Record Information.

Participation by vital records agencies in paternity efforts can be broken into two general
categories: provision of services to clients at local offices; and storage and retrieval of paternity
data for use in child support enforcement. The first category, direct service to clients, can include
providing forms and outreach materials on paternity acknowledgment procedures to the public
and assisting parents in acknowledging paternity by discussing, notarizing and accepting
acknowledgment forms at local offices. Although 46 State child support agencies claimed parents
could complete these forms at local vital records offices, only 32 State vital records offices report
providing these services through most or all of their local branches. When asked whether they
perceived this task as easy or difficult for staff to complete, 22 vital records offices report that
providing the service is a least somewhat difficult, typically because their staff lack time or
adequate training.

Thirty-three State vital records agencies also view the second category of participation, storage
and retrieval of information, as the responsibility of vital records agencies. The level of
collaboration between vital records agencies and child support agencies in storing and retrieving
information varies greatly by State. At least five State child support agencies follow
documentation procedures which circumvent their State’s vital records agency almost entirely.
Still, many States make use of the vital records agency’s expertise in working with birth
documents and rely particularly on their vital records agency to record paternities established
through courts and birthing hospitals. About three-fourths of vital records agencies also help train
hospital staff on administering acknowledgments. Although a large number of local child support
offices surveyed report only limited access to vital records agency information due to backlogs
and technical problems, many State vital records agencies maintain they could offer better and
faster service with additional resources.

Nine More State Child Support Enforcement Agencies Began Paying Their State Vital
Records Agency in the Last Two Years.

Only 19 State child support agencies reported paying their vital records agency two years ago,
while 28 report payments in 1998. However, child support agencies in at least six other States
report they do not pay because they are unsure whether Federal matching funds are available for
such payment. Vital records agencies in a few more States claim payment negotiations have been
hampered by child support agency reluctance to use Federal monies. There is clearly still much
debate about the appropriate use of Federal matching funds.

In four of the States which have just begun paying, the two agencies have formal agreements
which specify services rendered and payment amounts, while the payment process appears to be
somewhat informal in other States. In our 1997 report, we recommended that OCSE consider


                                                  3

encouraging States to draft a flexible interagency agreement to, among other things, clarify the
distribution of State and Federal funds. The document processing services for which payments
are currently made in order of prominence are: fees for retrieval and copying of birth documents;
payment for additional office supplies and equipment; and fees for on-line access to vital records
agency databases. Five vital records offices report child support staff are made available to help
process forms and enter data. Only seven vital records agencies report they receive a fee for
actually obtaining voluntary paternity acknowledgment forms either by mail or through
completion in a local vital records office, with fees averaging 20 dollars. It is this payment for
obtaining acknowledgments which is highlighted in OCSE’s response to NAPHSIS.

In Half of the States Receiving Payments (14 States), Most Paternity Establishment Expenses
Are Still Paid With Vital Records Agency Funds.

We did not feel it was useful to ask States the exact amount of money being paid to vital records
agencies, since State budgets, populations and resources vary significantly. Furthermore, it may
be difficult for vital records agencies to clearly delineate expenses in processing paternity
acknowledgments and the resulting changes in birth records from normal birth registry costs. The
same automated systems, office equipment and staff are likely to be used jointly for all office
tasks. Instead, we tried to ascertain both the relative amount and impact of payment by asking
vital records agency respondents who were paid to estimate in a general way how much of their
cost in obtaining and processing paternity acknowledgments is covered by child support agency
compensation.

Most respondents who were paid were able to estimate cost coverage on a scale we provided,
ranging from all expenses covered to little expenses covered. Of the 28 States being paid, 11
State vital records agencies claim most or all of their paternity acknowledgment expenses are
covered by child support agency reimbursement, and another three States report about half of
their expenses are covered. However, exactly half (14 States) report only some or little of their
expenses are covered by such payment. Additionally, expenses incurred are not exclusively due to
voluntary paternity acknowledgments. Vital records offices must change the birth record when
they are notified of any and all paternity establishments, regardless of whether they were finalized
through voluntary acknowledgment, other administrative processes, or the State courts. As one
respondent wrote, "The burden is not processing acknowledgments anymore, but amending the
birth record. With the increase in voluntary acknowledgments signed, we have a greater backlog
in correspondingly changing the birth certificate to match the new acknowledgments."

Forty-nine States charge parents a fee for amending birth records and producing new certificates,
but user fees may not cover related expenses. One State vital records agency which provided
budget data reports a full 20 percent of their State appropriation is now spent on processing
paternity establishments, although they consider the task to be somewhat ancillary to their overall
objectives as a public health agency. Although vital records agencies have had an increase in the
number of establishments and of requests for documentation from both parents and child support
offices, they desire to keep fees to parents low so as not to discourage paternity establishments


                                                 4

and the proper notification of such to vital records agencies. While 41 vital records agencies
report they considered paternity establishment efforts important to their agency mission, over half
(28 States) believe these are services they perform primarily, or even wholly, for the benefit of
child support enforcement and do not view it as part of their general public health initiative.

Despite Potential Benefits to Both Agencies, Payment to Vital Records Agencies May Not
Always Be Appropriate Due to Wide Variations in State Funding, Policy and Practice.

State child support offices which have developed their own creative and effective documentation
methods may need their vital records agency only for occasional verification of information. Yet,
other States appear to be struggling to meet the Federal requirement of a Statewide paternity
database, and may be well served to further explore solutions which would utilize the unique
capabilities of vital records agencies. A majority of child support agencies which pay vital records
agencies, however, did report in our prior study that they perceived at least some improvement in
service or in their interagency relationship when they began paying. Additionally, vital records
agency respondents indicate lack of payment is overwhelmingly the biggest barrier to offering
faster and more efficient service.

If OCSE mandated payment for services, though, it might cause problems in some States which
do not pay, in part, because of State government resistance to setting a precedent for paying vital
records agencies for public registry documents. Even a State vital records registrar expressed
understanding of the concern about setting a precedent, reporting “State officials decided not to
pay hospitals for completed acknowledgments because they thought it would set a bad precedent
that would haunt future health statistic efforts. Medical records personnel have traditionally
done vital statistic work at no charge.” The official maintained that paying for completion of
voluntary paternity acknowledgments (whether to birthing hospitals, vital records offices, or other
entities) might cause them to expect payment for other, similar services. Still, child support
agencies which are both relatively independent of their vital records agencies and highly
interdependent report they are unaware of their authority to offer the vital records agency
compensation for information that furthers paternity establishment objectives.

RECOMMENDATION

OCSE Should Clearly and Consistently Interpret Federal Regulations When Providing
Information to States Regarding Use of Federal Funds for Reimbursement to Vital Records.

A number of State child support agencies report they believe it inappropriate to use Federal
matching funds for any sort of reimbursement to vital records agencies, although Federal
regulation clearly indicates reimbursement may be made for selected expenses. This confusion
may be caused by OCSE not fully addressing all aspects of their payment policy when providing
guidance to States. When States request assistance or when general policy documents are
distributed to all States, OCSE should consistently provide information which clearly reflects the
complete content of the Federal regulation. Although Federal funds are not available for a


                                                 5

number of services potentially provided by vital records agencies, OCSE should make clear that
funds may be used for some selected functions, including obtaining acknowledgments from
parents, the costs of determining whether voluntary acknowledgments are stored in a statewide
database, providing copies of paternity establishment documents and birth certificates, and the
costs of routine exchange of information or documents under an agreement.

AGENCY COMMENTS

The Administration for Children and Families (ACF) states that while OCSE is willing to work
with States to determine the best way to assist the vital records community in establishing
paternity for children, it cannot support the initial recommendation presented in our draft of
this report to clarify that matching funds may be used to reimburse vital records agencies for
certain paternity establishment expenses. ACF notes that, according to Office of Management
and Budget (OMB) Circular A-87, Federal funds are not available to offset the general costs of
a State or local government. ACF states that the OMB circular precludes use of Federal funds
to finance general government services normally provided to the public, such as filing birth
records. ACF concludes that Federal Financial Participation (FFP) funds are not available to
reimburse State or local vital records agencies responsible for maintaining a database of
paternity establishments. ACF also concludes that FFP is not available to reimburse such
offices for the costs of establishing a system to process or store affidavits because they are
required to perform those activities by State law.

We wish to note that our draft report appeared to recommend that ACF authorize the use of
funds for anything agencies think reasonable. Our intent, rather, is for OCSE to clarify what
expenses may or may not be reimbursed. We have therefore changed our recommendation to
emphasize that any communication between OCSE and the States should provide consistent
and complete information regarding allowable costs under the regulation.

The ACF response to our report emphasizes only those purposes for which States may not use
FFP to reimburse vital records agencies for paternity establishment expenses. However, in its
final rules implementing welfare reform, OCSE repeats from prior regulation the three
relevant purposes for which States can use FFP for paternity establishment expenses,
including: “. . . the State child support agency's costs in determining whether a voluntary
acknowledgment has been recorded with the statewide database in State child support cases
needing paternity establishment; . . . reasonable and necessary costs, including fees, incurred
by the State child support agency in obtaining copies from an entity of documents such as
voluntary acknowledgments or birth certificates; . . .and, the IV-D agency's costs incurred
under an agreement, including the State child support agency's costs of establishing an
agreement, governing the routine exchange of information or documents regarding
acknowledgments, between the State child support agency and the designated entity that
maintains the statewide database, or any entity that gives the State child support agency access
to copies of acknowledgments if such an agreement is necessary.” (OCSE Action Transmittal
99-02)

                                               6

Even though these regulatory provisions have been in effect since 1994 and allow payment for
certain services, some State respondents from both agencies reported to us through surveys in
1996 and informally in 1998 that they remain confused about the use of funds. OCSE’s guidance,
as evidenced by their response to NAPHSIS and to our report, may be contributing to this
confusion. Therefore, we continue to believe there is a need for complete, clear and consistent
guidance to the States, in both written and verbal communication, on this issue.

ACF’s comments are provided in their entirety in Appendix A.




                                               7

